          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Audit of FAS’s Greater
           Southwest Acquisition
           Center – Schedule 84
           Pricing and Negotiation
           Report Number A120124/Q/A/P14001
           October 31, 2013




A120124/Q/A/P14001
                       Office of Audits
                       Office of Inspector General
                       U.S. General Services Administration


                                           REPORT ABSTRACT
                                 Audit of FAS’s Greater Southwest Acquisition Center – Schedule 84 Pricing and
                                 Negotiation
                                 Report Number A120124/Q/A/P14001
                                 October 31, 2013
                                 WHAT WE FOUND
                                 We identified the following during our audit:
OBJECTIVE
                                 Finding 1 – Schedule 84 negotiation procedures did not consistently adhere to federal
 To determine if the price       regulations and FAS policy, reducing assurance of price reasonableness.
 evaluation and negotiation of
 contracts and options           Finding 2 – Contracting officers achieved minimal cost savings despite contract audit
 awarded under the Greater       recommendations.
 Southwest Acquisition Center    Finding 3 – Price analyses lacked detail and substance causing unsupported price
 Schedule 84 comply with         reasonableness determinations.
 federal regulations and         Finding 4 – Key information not maintained in the contract file subjects the contract to
 policies.                       unnecessary risks.
                                 Finding 5 – Temporary extensions executed with invalid justifications may lead to contract
                                 lapses and possibly entitle contractors to equitable adjustment.
                                 Finding 6 – Excluded Parties List System checks were not consistently performed in
                                 accordance with federal regulations and policies, risking option award to excluded contractors.

                                 WHAT WE RECOMMEND
                                 Based on our audit findings we recommend that the Commissioner of the Federal Acquisition
                                 Service:
                                 1. Improve the strength and consistency of negotiation procedures by:
                                          a. Implementing a risk-based approach for negotiating options.
                                          b. Modifying existing internal contract reviews to include requirements for
                                               documenting option negotiations.
                                          c. Using contract audit results as a key negotiation tool to achieve maximum cost
                                               savings and obtaining an understanding of circumstances when/why those
                                               results could not be achieved.
                                 2. Issue guidance and implement changes to internal quality review procedures to ensure
                                     that price analyses are contract-specific, provide detailed reasoning, and reference
                                     supporting documentation in the contract file.
                                 3. Revise existing temporary extension review procedures to ensure compliance with FAS
Acquisition Programs Audit           Instructional Letter 2011-11 and examine the contracts with potentially invalid temporary
Office                               extensions identified in this audit.
1800 F Street, NW                4. Issue a FAS Operational Notice to emphasize federal regulations governing the timeliness
Room 5215                            and documentation of excluded parties checks.
Washington, D.C. 20405           MANAGEMENT COMMENTS
202-273-7370
                                 The Commissioner of the Federal Acquisition Service concurred with the audit report findings
                                 and recommendations. Management’s written comments to the draft report are included in
                                 their entirety as Appendix B.




      A120124/Q/A/P14001                                 i
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration

 DATE:             October 31, 2013
 TO:               Thomas A. Sharpe, Jr.
                   Commissioner, Federal Acquisition Service (Q)

 FROM:
                   Michelle L. Westrup
                   Audit Manager, Acquisition Programs Audit Office (JA-A)
 SUBJECT:          Audit of FAS’s Greater Southwest Acquisition Center – Schedule 84
                   Pricing and Negotiation
                   Report Number A120124/Q/A/P14001

This report presents the results of our audit of Schedule 84’s pricing and negotiation
within the Greater Southwest Acquisition Center. Our findings and recommendations
are summarized in the Report Abstract. Instructions regarding the audit resolution
process can be found in the email that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

Michelle Westrup      Audit Manager            michelle.westrup@gsaig.gov 816-926-8605
Lisa Rowen            Auditor-In-Charge        lisa.rowen@gsaig.gov       202-273-7379
James Gable           Auditor                  james.gable@gsaig.gov      202-273-7381

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A120124/Q/A/P14001                        ii
Table of Contents
Introduction .............................................................................................................. 1
Results
Finding 1 – Schedule 84 negotiation procedures did not consistently adhere to
           federal regulations and FAS policy, reducing assurance of price
           reasonableness. ...................................................................................... 2
                 Recommendation 1a & b ......................................................................... 3
                 Management Comments ......................................................................... 3
Finding 2 – Contracting officers achieved minimal cost savings despite contract
           audit recommendations ........................................................................... 4
                 Recommendation 1c................................................................................ 4
                 Management Comments ......................................................................... 4
Finding 3 – Price analyses lacked detail and substance causing unsupported
           price reasonableness determinations ...................................................... 4
                 Recommendation 2 ................................................................................. 6
                 Management Comments ......................................................................... 6
Other Observations .................................................................................................... 6
Finding 4 – Key information not maintained in the contract file subjects the
           contract to unnecessary risks .................................................................. 6
                 Management Comments ......................................................................... 7
Finding 5 – Temporary extensions executed with invalid justifications may lead to
            contract lapses and possibly entitle contractors to equitable
            adjustment ............................................................................................... 7
                 Recommendation 3 ................................................................................. 8
                 Management Comments ......................................................................... 8
Finding 6 – Excluded Parties List System checks were not consistently
          performed in accordance with federal regulations and policies, risking
          option award to excluded contractors ...................................................... 8
                 Recommendation 4 ................................................................................. 9
                 Management Comments ......................................................................... 9
Conclusion.............................................................................................................. 10
Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ....................................................................... C-1


A120124/Q/A/P14001                                        iii
Introduction
The Greater Southwest Acquisition Center is part of GSA’s Federal Acquisition Service
(FAS), Office of General Supplies and Services, Office of Acquisition Operations. As
one of six regionally located acquisition centers, the Greater Southwest Acquisition
Center manages five schedules, including Schedule 84. Schedule 84 provides total
solutions for law enforcement, security, facilities management, fire, rescue, clothing,
marine craft, and emergency disaster response. It is the highest revenue-producing
schedule within the Greater Southwest Acquisition Center. In fiscal years (FY) 2011
and 2012, Schedule 84 averaged approximately 1,500 active contracts with collective
annual sales greater than $2.4 billion.

To leverage the Government’s buying power and provide customer agencies with the
best value, contracting officers are required to determine fair and reasonable pricing
prior to awarding a GSA Schedule contract or exercising a contract option. 1 The
Federal Acquisition Regulation (FAR) describes various techniques contracting officers
can use to analyze prices in order to determine them as fair and reasonable. At a
minimum, contracting officers must perform a price analysis to determine whether the
prices of commercial items are reasonable. 2 Analyzing prices helps contracting officers
develop a negotiation position that provides the Government and contractor an
opportunity to reach agreement on a fair and reasonable price. The results of GSA
Office of Inspector General (OIG) preaward audits are a reliable tool available to
contracting officers for use in negotiations. Preaward audits frequently identify price
discounts that, if realized in negotiations, would result in substantial cost savings. The
negotiated price should provide the contractor with the greatest incentive for efficient
and economic performance.

The audit objective was to determine if the price evaluation and negotiation of contracts
and options awarded under the Greater Southwest Acquisition Center’s Schedule 84
comply with federal regulations and policies.

To accomplish this objective, we reviewed a judgmental sample of 15 contract files
representing 30 percent of all FY 2011 Schedule 84 sales. The sample consisted of the
largest contract assigned to each Schedule 84 contracting officer and/or contracting
specialist. The contract file reviews focused on the most recent award or option period.
In addition, we reviewed the audit resolution of Schedule 84 preaward audits issued
during FYs 2011 and 2012. During this timeframe, GSA OIG performed 15 preaward
audits of Schedule 84 contracts. Of those 15, 5 had completed the audit resolution
process as of February 2013.

See Appendix A – Purpose, Scope, and Methodology for additional details.


1
 Schedule contracts typically have a 5-year base period with three 5-year option periods.
2
  Price analysis is the process of examining and evaluating a proposed price without evaluating its
separate cost elements and proposed profit.


A120124/Q/A/P14001                          1
Results
Finding 1 – Schedule 84 negotiation procedures did not consistently adhere to
federal regulations and FAS policy, reducing assurance of price reasonableness.

When negotiation procedures are not conducted and/or documented diligently, the
contracting officer’s price reasonableness determination is unsupported and there is no
assurance that customer agencies are receiving the best price. Contracting officers did
not consistently document negotiation procedures and in one case, did not perform
them in accordance with federal regulations and FAS policy.

FAR 15.406-1 instructs contracting officers to prepare and document objectives when
negotiating any pricing action, which includes contracts and some contract
modifications. 3 FAR 15.406-3(a) requires that contracting officers document and
address the required elements of negotiations. In addition, FAS issued Instructional
Letter (IL) 2011-02 in November 2010, mandating the use of a pre-negotiation and price
negotiation memoranda containing the required material for all price-related
negotiations.

Pre-Negotiation and Negotiation Procedures of Contract Option not in
Accordance with Regulation and Policy
Contracting officers did not prepare negotiation objectives or conduct negotiations for
one contract option. FAR 15.406-1(b) requires that the contracting officer establish pre-
negotiation objectives prior to negotiation of any pricing action. FAS IL 2011-15
required a Pre-Negotiation Clearance Panel be conducted for any contract option
valued at or above $700,000. This contract option was valued at over $25 million, while
the entire contract value exceeded $72 million at the time of option.

A Pre-Negotiation Clearance Panel is a review procedure used to ensure quality
contract actions, including initial contract awards, modifications, and the exercise of
option periods. The goal of the panel is to ensure that the contracting officer is fully
prepared for negotiations of high risk contracts and contract options. However, this
contract quality review did not take place due to a documentation error.

FAS has revised IL 2011-15 to remove dollar value thresholds for Pre-Negotiation
Clearance Panels. According to the policy revision, FAS requires a minimum of three
panels per year for each schedule and that all contracting officers and specialists
participate in at least one panel every 36 months. The selection of contracts for review
is at the discretion of the Director of Acquisition Operations. By removing dollar
thresholds for Pre-Negotiation Clearance Panels, FAS eliminated a control to negotiate
all high dollar value contract options. We acknowledge that Pre-Negotiation Clearance
Panels may not be feasible or appropriate for all high value contract options; however,
the importance of negotiating these contract options remains.


3
    Contract options are exercised as modifications.


A120124/Q/A/P14001                                2
Negotiation Documentation not in Accordance with Regulation and Policy
Federal regulation and FAS policy require that negotiation procedures are thoroughly
documented. Contracting officers conducted negotiations but did not document them,
as required by FAR 15.406-3(a), for two of the contract options reviewed.

With the exception of those two options, Schedule 84 contracting personnel used
templates to document the negotiation process for options. Despite template usage,
contracting personnel did not consistently capture all the required elements of
negotiation in the documented negotiation results, as required by FAR 15.406-3.

      •   For two contract options, contracting officers documented negotiations, but did
          not include one or more elements of negotiation.
      •   In four other contract options, contracting officers documented all of the required
          elements; however, not all of the elements were included in the results of
          negotiations.

In addition, the templates did not include all of the guidance detailed in FAS IL 2011-02,
which reinforces the FAR requirements. For three contract options, contracting officers
did not document pre-negotiation and/or negotiation procedures in accordance with this
guidance. 4 When discussing the documentation with contracting personnel, they
provided inconsistent responses as to whether an internal or FAS template was used to
document the negotiation process for an option.

Contracting officers should conduct and document the entire negotiation process for
options, as required by FAR and FAS policy, so that their decisions are clearly
supported. In addition, mandatory use of negotiation templates, as outlined in FAS IL
2011-02, would minimize documentation inconsistencies. It would also increase the
likelihood that all required information is detailed in the pre-negotiation and price
negotiation memoranda.

Recommendation 1

We recommend that the Commissioner of FAS:

      1. Improve the strength and consistency of negotiation procedures by:
            a. Implementing a risk-based approach for negotiating options.
            b. Modifying existing internal contract reviews to include requirements for
               documenting option negotiations.

Management Comments

The Commissioner of FAS concurred with the audit report finding and recommendation.
Management’s written comments to the draft report are included in their entirety as
Appendix B.

4
    Two of these contract options were also in violation of FAR 15.406-3 as detailed in the previous bullets.


A120124/Q/A/P14001                                 3
Finding 2 – Contracting officers achieved minimal cost savings despite contract
audit recommendations.

Federal regulation and FAS guidance require contracting officers to determine fair and
reasonable pricing for the Government. To determine fair and reasonable prices,
contracting officers analyze proposed prices and conduct negotiations.           While
negotiations involve concessions from both the contractor and the Government, there is
a risk that the contracting officer is not achieving best value when recommended cost
avoidances are not achieved. Contracting officers, as stewards of taxpayer dollars,
should take full advantage of preaward audit assistance in their effort to obtain best
value.

The OIG performs preaward audits to assist contracting officers in determining fair and
reasonable pricing for upcoming contract options. While advisory in nature, preaward
audit reports provide contracting officers with an in-depth assessment of a contractor’s
pricing policies, procedures, and commercial discounts, and frequently identify potential
cost savings.

During FYs 2011 and 2012, the OIG performed 15 preaward audits on Schedule 84
contracts. For the five contracts for which the audit resolution process was completed,
the total dollars audited equaled $643,986,837.           Auditors recommended cost
avoidances totaling $84,015,355. However, after negotiations, contracting officers only
achieved savings of $2,957,074 (3.52% of the recommended cost avoidances).

Recommendation 1

We recommend that the Commissioner of FAS:

   1. Improve the strength and consistency of negotiation procedures by:
         c. Using contract audit results as a key negotiation tool to achieve maximum
         cost savings and obtain an understanding of circumstances when/why those
         results could not be achieved.

Management Comments

The Commissioner of FAS concurred with the audit report finding and recommendation.
Management’s written comments to the draft report are included in their entirety as
Appendix B.

Finding 3 – Price analyses lacked detail and substance causing unsupported
price reasonableness determinations.

When price analysis is not sufficiently detailed or documented, contract files do not fully
support the contracting officer’s fair and reasonable price determination. Contracting
officers use internal templates to document price analysis for an option. However, the
templates contain standard language and lack sufficient detail. In many cases,



A120124/Q/A/P14001                       4
contracting personnel did not change the provided boilerplate language, nor add any
contract-specific details to support the price analysis. Additionally, contract files did not
consistently contain supporting documentation for the price analysis used to determine
fair and reasonable pricing.

FAR 4.801 states that documentation in the contract file shall provide a complete
background as a basis for informed decisions, to support actions taken, and to provide
information for reviews and investigations. In 11 contract files, contracting officers did
not provide contract-specific detail in the analysis and/or include documents to support
the price analysis performed. In our review, contracting officers generally performed a
market analysis to determine price reasonableness prior to exercising an option. During
a market analysis, the contractor’s proposed prices are typically compared to similar
items offered in the open market and on GSA Advantage. 5 Contracting officers did not
specifically identify which items were compared or the prices of those items. Due to
limited details in the price analysis description and lack of supporting documentation, we
could not verify fair and reasonable pricing determinations.

FAR 4.801 also requires the contracting officer to provide support for all contract
actions. 6 In one contract file, the contracting officer’s determination to exercise the
option was based on the contractor’s Commercial Sales Practice information. However,
the sales practice information was not in the contract file and could not be located by
contracting personnel. The contractor’s Commercial Sales Practice form provides the
contractor’s annual sales and serves as the contractor’s main submission of commercial
practices and discounts offered to commercial customers. Without the sales practice
information in the contract file, we could not examine how negotiation objectives were
developed or how the discounts offered to the Government compare to those offered
commercially.

FAR 15.403-3(c)(1) requires the contracting officer to perform a price analysis to
determine fair and reasonable pricing whenever acquiring a commercial item.
Additionally, Procurement Information Bulletin 05-4 states data and information related
to the contracting officer’s fair and reasonable price determination should be included in
the contract file. In one file, the contracting officer did not perform a price analysis prior
to exercising the option. When asked for a price analysis, the contracting officer stated
that there is little comparison between similar services offered on Schedule.

In order to determine fair and reasonable pricing for a commercial item, contracting
officers must perform a price analysis. To support the analysis, the contracting officer
must specifically document the steps performed and explain the results in detail.
Furthermore, the contracting officer must file any documents used during the analysis to
support their determination. Without detail, the contract file does not fully support the
actions taken by the contracting officer.

5
  GSA Advantage is an online shopping and ordering system used by customer agencies to purchase
products and services from a variety of approved government contractors.
6
  Support for contact actions should contain a level of detail that would allow an independent reviewer to
understand the basis and rationale for specific actions.


A120124/Q/A/P14001                              5
Recommendation 2

We recommend that the Commissioner of FAS:

2. Issue guidance and implement changes to internal quality review procedures to
ensure that price analyses are contract-specific, provide detailed reasoning, and
reference supporting documentation in the contract file.

Management Comments

The Commissioner of FAS concurred with the audit report finding and recommendation.
Management’s written comments to the draft report are included in their entirety as
Appendix B.

Other Observations

Finding 4 – Key information not maintained in the contract file subjects the
contract to unnecessary risks.

The contracting officer’s actions and contract history risk being unsupported when key
contract documents are not included in contract files. Schedule 84 contract documents
are prepared and maintained electronically outside the official contract file. Once these
documents are completed and finalized, they are then uploaded to the official electronic
contract file. However, some contract files did not contain key documentation relating to
the most recent option period. As a result, these contract files did not support the
contracting officer’s actions and did not illustrate a full depiction of the contract history.

FAR 4.801 requires the contract file to be sufficiently documented in order to provide a
complete background of the contract and support all actions taken by the contracting
officer. A complete contract file supports procurement decisions and provides
information for reviews and investigations and furnishes important facts in the event of
litigation or congressional inquiries. In eight of the contract files reviewed, personnel
failed to file at least one essential contract document in the official file. The audit team
requested these documents, but personnel were only able to locate them outside of the
official file. These documents, specifically mentioned by FAR 4.803(a) as records
normally contained in a contract file, included, but were not limited to:
     • results of negotiation,
     • Pre-Negotiation Clearance Panel documents,
     • a preaward audit report,
     • audit decision records,
     • modifications for temporary extensions, and
     • the contracting officer’s finalized determination to exercise an option.

Contract files must provide adequate documentation to comprise a complete history of
all contractual actions. Contract reviews, disputes, and protests are based on


A120124/Q/A/P14001                        6
documents in the contract file. Complete contract file documentation provides
contracting officers with a means to support their decisions. Without it they risk the
integrity of acquisitions.

Management Comments

The Commissioner of FAS concurred with the audit report finding. Management’s
written comments to the draft report are included in their entirety as Appendix B.

Finding 5 – Temporary extensions executed with invalid justifications may lead to
contract lapses and possibly entitle contractors to equitable adjustment.

Invalid temporary extensions may result in contract lapses and entitle contractors to an
equitable adjustment. Despite previous OIG audit reports, contracting officers are
unaware of current guidance. This has resulted in invalid temporary extensions.

The OIG Office of Audits previously reported on similar findings regarding temporary
extensions in Review of Consistency in Implementing Policy Across Acquisition Centers
- Temporary Extensions. 7 The report recommended that the FAS Commissioner
establish centralized policies and procedures regarding the proper use of contract
clauses by acquisition centers. In response, FAS management issued Instructional
Letter 2011-11, providing instruction on the use of temporary extensions. In accordance
with this instructional letter, temporary extensions must be issued citing either FAR
52.217-8 or FAR 52.212-4, which grants authority for the extension.

The majority of schedule contracts consist of a 5-year base period with three 5-year
option periods. Both the base and option periods can be temporarily extended if
properly authorized. These temporary extensions are issued as either a bilateral or
unilateral modification to the contract.

We reviewed 12 temporary extensions which were associated with 8 options in our
sample. In 11 of those extensions, the contracting officer either omitted or used
incorrect clauses to extend the contract, rendering the extension invalid.

      •   For two of the temporary extensions, contracting officers cited expired GSA
          Acquisition Regulation clause 552.243-72.
      •   In one unilateral modification for a temporary extension, the contracting officer
          cited a clause that only applied to bilateral modifications.
      •   For one temporary extension, the contracting officer cited a clause that granted
          authority to exercise an option rather than a temporary extension.
      •   For the remaining seven temporary extensions, the contracting officer unilaterally
          extended the contract without citing a clause that permitted the extension.




7
    Report Number A100204/Q/A/P11005, March 31, 2011


A120124/Q/A/P14001                          7
Contracting officers must ensure that they follow the proper authorities and procedures
to temporarily extend contract options. Otherwise, invalid extensions can result in the
contractor’s entitlement to equitable adjustment and/or cause lapses in contract
performance.

Recommendation 3

We recommend that the Commissioner of FAS:

3. Revise existing temporary extension review procedures to ensure compliance with
FAS Instructional Letter 2011-11 and examine the contracts with potentially invalid
temporary extensions identified in this audit.

Management Comments

The Commissioner of FAS concurred with the audit report finding and recommendation.
Management’s written comments to the draft report are included in their entirety as
Appendix B.

Finding 6 – Excluded Parties List System checks were not consistently performed
in accordance with federal regulations and policies, risking option award to
excluded contractors.

The determination of contractor responsibility is unsupported if Excluded Parties List
System (EPLS) reviews are not performed and/or documented. 8 If the required EPLS
checks are untimely, the Government risks awarding or extending a contract to an
excluded contractor. We did not identify any instances of this occurring, but the risk
should be addressed.

Federal regulation and policy require that the Government not conduct business with
excluded contractors. In order to help enforce this practice, contracting officers must
diligently review federal procurement systems for excluded parties at the required points
in time during the acquisition process. It is also necessary that they document these
searches of contractors in the official contract file as support for their decisions in
accordance with FAR 4.801.

Contracting officers consistently stated during interviews that they checked EPLS within
30 days prior to exercising an option. However, this practice did not comply with
regulation and policies. The FAR and federal policies required the contracting officer
review EPLS when the contractor chooses to pursue a new option and immediately
prior to exercising the option.



8
 The System for Award Management, which combines several federal procurement systems, replaced
EPLS on November 22, 2012. This system contains information on entities excluded from conducting
business with the Federal Government.


A120124/Q/A/P14001                         8
For 11 contract files, contracting officers did not perform and document EPLS reviews in
accordance with federal regulations and policies for the option period reviewed. These
regulations and policies include FAR 9.405(d)(1) and (4), FAR 17.207, FAR 4.801, GSA
Office of Governmentwide Policy Acquisition Alert 2010-01, and FAS IL 2012-06.

   •   For nine options, the contracting officer did not conduct a second or final EPLS
       search immediately prior to exercising the option. In six of those nine options,
       the contract file only documented the first EPLS search. The other three options
       had documentation of both EPLS searches; however, the second search was not
       performed immediately prior to exercising the option.
   •   For one other option, the contracting officer did not document the first EPLS
       search.
   •   One contract file had no EPLS documentation for the option.

Recommendation 4

We recommend that the Commissioner of FAS:

4. Issue a FAS Operational Notice to emphasize federal regulations governing the
timeliness and documentation of excluded parties checks.

Management Comments

The Commissioner of FAS concurred with the audit report finding and recommendation.
Management’s written comments to the draft report are included in their entirety as
Appendix B.




A120124/Q/A/P14001                     9
Conclusion
We identified multiple instances in which contracting staff did not adhere to federal
regulations or FAS policies throughout the negotiation process. While we found that
price evaluations generally complied with federal regulations and policies,
improvements should be made when documenting the price evaluation. The purpose of
the price evaluation or analysis is to support the procurement decision and develop a
negotiation position that enables the contracting officer to obtain a fair and reasonable
price. Contracting officers should clearly depict the analysis conducted, the concluded
position, and reference any supporting documentation for the analysis in preparation for
negotiations.

Contracting officers should always conduct and document all required components of
the negotiation process and adhere to FAS policies for additional guidance. Further,
contracting officers should take full advantage of preaward audit assistance to achieve
greater cost savings. If the price analysis and negotiation procedures are not
conducted diligently and documented in detail, then assurance that customer agencies
are receiving best value is at risk.

The audit noted other observations for the contract options reviewed, including
incomplete contract file documentation, invalid temporary extensions, and missing
EPLS reviews. Contracting officers did not always ensure documents significant to the
contract’s record were filed. We also identified many instances in which contracting
officers used invalid justifications for temporary extensions. Finally, we noted that
contracting officers did not routinely conduct and document EPLS searches in
accordance with federal regulations. Correcting these issues is necessary to ensure
contracting officer actions and the corresponding contract files are supported, valid, and
responsible.




A120124/Q/A/P14001                      10
Appendix A – Purpose, Scope, and Methodology
Purpose

The General Services Administration Office of Inspector General included this audit in
its fiscal year (FY) 2012 Audit Plan.

Scope

The audit scope was limited to the largest value contract assigned to each Schedule 84
contracting officer and/or contracting specialist in order to evaluate risk and obtain a
general representation of Schedule 84 contracting activities. To evaluate preaward
audit cost savings, the audit team examined all FYs 2011 and 2012 Schedule 84 Office
of Inspector General preaward audits resolved as of February 2013.

Methodology

To accomplish our objective, we:

   •   Reviewed the Federal Acquisition Regulation and Federal Acquisition Service
       policies pertaining to contract pricing, contract file documentation, and
       negotiations.
   •   Reviewed the Greater Southwest Acquisition Center’s internal guidance and
       Schedule 84 policies and procedures.
   •   Obtained a universe of all active FY 2011 Schedule 84 contracts and developed
       a risk-based judgmental sample based on contract sales and varying contracting
       officers. The sample consisted of 15 contracts, totaling $787 million in FY 2011
       sales.
   •   Obtained the official contract file for all contracts in the sample and reviewed
       documents related to the most recent award or option period.
   •   Reviewed the audit resolution of Schedule 84 preaward audits issued during FYs
       2011 and 2012.
   •   Interviewed Schedule 84 management and contracting employees regarding
       Greater Southwest Acquisition Center procedures and contract file
       documentation.
   •   Obtained input from Federal Acquisition Service Office of Acquisition
       Management officials and Office of Governmentwide Policy Acquisition Policy
       officials regarding the importance of negotiation and price evaluation
       documentation in the contract file.
   •   Reviewed Federal Acquisition Service guidance on temporary contract
       extensions and an Office of Governmentwide Policy Acquisition Alert on the
       Excluded Parties List System.




A120124/Q/A/P14001                    A-1
We conducted the audit between April 2012 and February 2013 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

Our audit was limited in scope; therefore, our evaluation of internal controls was limited
to items discussed in the Results section of this report.




A120124/Q/A/P14001                     A-2
Appendix B – Management Comments




A120124/Q/A/P14001    B-1
A120124/Q/A/P14001   B-2
A120124/Q/A/P14001   B-3
A120124/Q/A/P14001   B-4
A120124/Q/A/P14001   B-5
Appendix C – Report Distribution
Commissioner, Federal Acquisition Service (Q)

Deputy Commissioner, Federal Acquisition Service (Q1)

Chief of Staff, Federal Acquisition Service (Q0A)

Controller, Federal Acquisition Service Financial Services (BF)

Acting Regional Administrator, Greater Southwest Region (7A)

Acting Regional Commissioner, Federal Acquisition Service,
Greater Southwest Region (7Q)

Regional Counsel, Greater Southwest Region (LD7)

Director, Greater Southwest Acquisition Center (7QSA)

Director, Acquisition Operations (QSA)

Director, Management and Oversight Division (H1C)

FAS Audit Liaison, Greater Southwest Region (7Q0A)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A120124/Q/A/P14001                       C-1
